IN THE
SUPREME COURT OF THE UNITED STATES
No.
PRISCILLA ANN ELLIS,

Petitioner
Vv.

UNITED STATES OF AMERICA,
Respondent
MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS
Petitioner Priscilla Ann Ellis, by and through his undersigned counsel, asks
leave to file the petition for a writ of certiorari without prepayment of costs and to
proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:
1. The United States District Court for the Middle District of Florida
2. The United States Court of Appeals for the Eleventh Circuit
The undersigned was appointed to represent the Petitioner pursuant to 18

U.S.C. ยง 3006A in both of the above-mentioned courts.
Respectfully Submitted on this 3rd day of September 2020,

SS

BJORN E. BRUNVAND
Brunvand Wise, P.A.

615 Turner Street

Clearwater, FL 33756
Telephone: (727) 446-7505
Email: bjorn@acquitter.com
Florida Bar No. 0831077
Counsel of Record for Petitioner

Ellis v. United States
Motion for Leave to Proceed in Forma Pauperis
Page 2 of 2
